WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7955

‘Alton D. Pelichat Michigan

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First y Washington, D.C. 20543).

semi: (CL UDY

Date: (3/25/20

(Type or print) Name Jon P, Wojtala |

© mr. O Ms. © Mrs. © Miss
Firm Wayne County (Michigan) Prosecuting Attorney
Address 1441 St. Antoine, 11th Floor
City & State Detroit, Michigan Zip 48226
Phone 313-224-5748 Email jwojtala@waynecounty.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Alton D. Pelichat
